Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  TEMPORARY ASSISTANCE
    FOR NEEDY FAMILIES

   Improving Client Sanction Notices




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-09-98-00292
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION IX                                                        HEADQUARTERS

Steven Zerebecki, Lead Analyst                                   Linda Hall, Program Specialist
Scott Hutchison, Program Analyst                                 Alan Levine, Program Specialist
Lori Stickel, Program Analyst




     To obtain copies of this report, please call the San Francisco Regional Office at (415)437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                      EXECUTIVE                       SUMMARY

PURPOSE

         To evaluate sanction notices sent to clients of the Temporary Assistance for Needy
         Families (TANF) program.


BACKGROUND

         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
         (PRWORA, P.L. 104-193) significantly overhauled the Federal welfare system. The
         previous Aid to Families with Dependent Children (AFDC) entitlement program
         guaranteed Federal benefits to all eligible participants. The PRWORA replaced AFDC
         with TANF, a block grant program with strict participation requirements and a 5-year cap
         on Federal cash aid. Under TANF, States are granted the authority and flexibility to
         design programs that move clients from welfare to self-sustaining employment, but must
         meet rigorous performance measures.

         States use financial “sanctions” — monetary penalties applied to clients’ cash aid — to
         enforce participation with certain Federal and State provisions of TANF. All States must
         sanction clients who fail to participate in work activities or child support enforcement.
         Individual States may, at their discretion, sanction clients who do not cooperate with other
         requirements. Minimum amounts and durations of sanctions are prescribed by Federal
         law, but States determine maximum penalty levels.

         Sanctioned clients may attempt to “cure” a sanction informally by complying with program
         requirements or establishing good cause for not participating. Alternatively, they may
         formally request an appeal to determine if the sanction was appropriate. Depending on the
         timing of the cure or appeal, clients can sometimes resolve a sanction dispute before their
         benefits are reduced or terminated.

         State and county TANF offices send sanction notices to notify clients of sanction
         decisions. Little guidance is provided to States on developing sanction notices, and our
         preinspection research revealed that these notices vary widely in quality and content.
         Thus, we determined that an evaluation of sanction notices was warranted.

         We purposefully selected eight States in which to visit at least one urban and one rural
         office. In total, we visited 26 TANF offices, where we held caseworker focus groups,
         director interviews, and limited case-file reviews of recently sanctioned cases with
         individual caseworkers. At 19 of the offices, we conducted client focus groups and also

TANF—Improving Client Sanction Notices            1                                     OEI-09-98-00292
         interviewed at least one advocacy group in each State. In addition, we collected sanction
         policies and notices from each State. Lastly, we reviewed 47 notices issued by the offices
         that we visited, evaluating each for completeness and clarity.

         The methods we used during this study pose some distinct advantages and disadvantages
         for the scope of our findings. The purposeful sample allowed us to examine sanction
         implementation in States with widely varying attributes. We also gained a thorough
         understanding of our respondents’ relationships with and attitudes towards sanctions. Our
         methodology precludes us, however, from commenting on the extent to which our
         findings and observations are representative nationwide. We also cannot evaluate direct
         outcomes of sanction policies, procedures, and practices on clients and the program.


FINDINGS

         Comprehensive and understandable notices can improve the sanction process. A
         sanction notice with complete information in a clear format can improve client
         understanding and help alleviate frustration for both clients and caseworkers.

         Sanction notices are deficient in some respects. Although most notices adequately
         explain some sanction details, many lack instructions on how to cure sanctions and do not
         reference local legal aid. A few notices contain incorrect information which can mislead
         clients and create extra work for caseworkers. Confusing wording on notices impedes
         client understanding, an effect heightened by language barriers.


RECOMMENDATION

         We recommend that the Administration for Children and Families encourage States to
         issue comprehensive and understandable sanction notices with information on (1) the
         amount, duration, and cause of the sanction, (2) names and phone numbers of specific
         contacts in the TANF office or service provider who will have more information about the
         sanction, (3) how to cure the sanction, (4) client appeal, fair hearing, and, if applicable,
         conciliation rights, and (5) referral(s) for local legal assistance.


AGENCY RESPONSE

         We received comments on the draft report from the Administration for Children and
         Families. The agency concurred with our recommendation and stated that it is committed
         to working with States to improve State sanction notices. It will provide States with



TANF—Improving Client Sanction Notices            2                                     OEI-09-98-00292
         examples of understandable and comprehensive sanction notices and facilitate networking
         among States interested in improving State sanction notices.


            This is one of three OIG reports on how States administer client sanctions
            under TANF. One companion report, Temporary Assistance for Needy
            Families: Improving the Effectiveness and Efficiency of Client Sanctions
            (OEI-09-98-00290), provides a broad overview of State administration of
            client sanctions. The other, Temporary Assistance for Needy Families:
            Educating Clients about Sanctions (OEI-09-98-00291), describes how States
            communicate to clients the changes in sanction policies and procedures.




TANF—Improving Client Sanction Notices          3                                    OEI-09-98-00292
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                Client sanctions under TANF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                Curing and appealing sanctions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                Sanction notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Comprehensive and understandable notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Incomplete notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Incorrect notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Confusing notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES

A:        Comprehensive and understandable notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


B:        Detailed secondary notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


C:        Incorrect and confusing notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





TANF—Improving Client Sanction Notices                               4                                                     OEI-09-98-00292
                                  INTRODUCTION

PURPOSE

         To evaluate sanction notices sent to clients of the Temporary Assistance for Needy
         Families (TANF) program.


BACKGROUND

         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
         (PRWORA, P.L. 104-193) significantly overhauled the Federal welfare system. The
         previous Aid to Families with Dependent Children (AFDC) entitlement program
         guaranteed Federal benefits to all eligible participants. The PRWORA replaced AFDC
         with TANF, a block grant program with strict participation requirements and a 5-year cap
         on Federal cash aid. Under TANF, States are granted the authority and flexibility to
         design programs that move clients1 from welfare to self-sustaining employment, but must
         meet rigorous performance measures.

Client Sanctions Under TANF

         Financial “sanctions” — monetary penalties applied to clients’ cash aid — enforce
         cooperation with certain TANF program requirements.2 Federal TANF law directs States
         to sanction clients for failure to participate in work activities and noncooperation with
         child support enforcement efforts. States also may sanction clients who fail to follow
         other guidelines, such as child immunization and school attendance requirements, or who
         fail to attend required meetings or other program activities (e.g., training sessions).

         States may develop unique sanction policies within parameters set by TANF. They are
         required, at minimum, to apply a pro rata benefit reduction for each month a client
         receives aid and is not in compliance. States are free, however, to determine maximum
         sanction amounts and durations, including full-family sanctions and lifetime exclusion from
         the program. Some use tiered sanctions, with progressively stiffer penalties for each
         instance of noncompliance.




         1
          For the purposes of this report, a TANF “client” is the head or heads of a family receiving cash aid.
         2
          Clients exempted from program requirements for “good cause” reasons, such as unavailability of child
care and danger of domestic violence, are not subject to sanctions.

TANF—Improving Client Sanction Notices                    5                                           OEI-09-98-00292
Curing and Appealing Sanctions

         Informal conciliation processes in some States allow clients and TANF offices to resolve
         any disputes involving a sanction. Clients who receive notices may attempt to “cure” the
         sanction by complying with program requirements or establishing good cause. If done
         promptly, clients’ benefits remain intact. If not, clients may have full benefits restored
         only after the minimum sanction duration has expired.3

         If conciliation is unsuccessful or unavailable, clients in all States have the right to appeal a
         sanction. Clients who submit an appeal within State time frames can opt to continue their
         full benefits or accept the reduced benefit level while the appeal is decided. Clients who
         continue full benefits and lose the appeal must return overpayments to the TANF agency.
         Conversely, the TANF agency must pay back benefits to clients who win the appeal and
         had their benefits reduced.

Sanction Notices

         To notify clients of sanction decisions, TANF offices issue one or more written sanction
         notices.4 Offices also have the responsibility to inform clients of conciliation processes (if
         applicable), their appeal rights, and their right to legal counsel. A “notice of intent” often
         is sent to clients when the initial noncompliance occurs, warning that a sanction is
         imminent if not cured or appealed. Offices issue a second notice when the actual benefit
         reduction takes place.

         The TANF legislation provides little guidance to States on the development of sanction
         notices, and our preinspection research indicated a wide range in their quality and content.
         Thus, we determined that an evaluation of sanction notices was warranted.

METHODOLOGY

         We purposefully selected an eight-State sample to capture diversity in:

                            <        percent reduction in TANF recipient population,5
                            <        State policies on TANF client sanctions,
                            <        percent of national TANF recipient population, and
                            <        geographic location.


         3
          The specific processes and time frames for curing sanctions differ by State.
         4
          States may elect to notify clients by other means, such as phone calls, in addition to sanction notices.
         5
          Caseload reduction rates were used as a proxy for sanction rates, as reliable client sanction data for all
50 States did not exist when we selected the sample.

TANF—Improving Client Sanction Notices                     6                                            OEI-09-98-00292
         We visited at least one urban and one rural office in the following States: California,
         Florida, Idaho, Michigan, Minnesota, New York, Ohio, and Texas. In total, we visited 26
         local TANF offices.

         We gathered data from diverse sources to obtain a balanced picture of sanctions. At each
         of the TANF offices that we visited, we held focus groups with caseworkers, interviewed
         the director, and performed limited case-file reviews of recently sanctioned cases with
         individual caseworkers. In 19 of the sites, we conducted focus groups with clients and
         also spoke with at least one client advocacy group in each State. In addition, we collected
         sanction policies and publications. Lastly, we reviewed 47 notices issued by the offices
         that we visited, evaluating each for completeness and clarity.6

         The methods used during this study pose some distinct advantages and disadvantages for
         the scope of our findings. The purposeful sample allowed us to examine sanction
         implementation in States with widely varying attributes. We also gained thorough
         information on our respondents’ relationships with and attitudes towards sanctions. Our
         methodology precludes us, however, from commenting on the extent to which our
         findings and observations are representative nationwide. We also cannot evaluate direct
         outcomes of sanction policies, procedures, and practices on clients and the program.



             This is one of three OIG reports on how States administer client sanctions
             under TANF. One companion report, Temporary Assistance for Needy
             Families: Improving the Effectiveness and Efficiency of Client Sanctions
             (OEI-09-98-00290), provides a broad overview of State administration of
             client sanctions. The other, Temporary Assistance for Needy Families:
             Educating Clients about Sanctions (OEI-09-98-00291), describes how States
             communicate to clients the changes in sanction policies and procedures.




         6
          The office was our unit of analysis rather than the notice, as some offices send multiple notices. For
these offices, we aggregated information contained on all notices for our evaluation.

TANF—Improving Client Sanction Notices                    7                                           OEI-09-98-00292
                                          FINDINGS

Comprehensive and understandable notices can improve the
sanction process
         A sanction notice with complete information in a clear format can improve client
         understanding and help alleviate frustration for both clients and caseworkers. We spoke
         with several clients who had received sanction notices and were unsure of whom to
         contact to discuss their situations. In addition, caseworkers noted that they spend an
         inordinate amount of time with sanctioned clients, explaining the reasons for the sanctions
         and the actions required to achieve compliance.

         Notices must contain some crucial information for clients to understand both their
         sanctions and their rights. Comprehensive sanction notices provide:

                            <        the amount, duration, and cause of the sanction,
                            <        the name and number of the client’s caseworker,
                            <        instructions on how to cure the sanction,
                            <        an explanation of the client’s appeal rights, and
                            <        referrals for free legal assistance.

         The information can be presented in a variety of effective formats, but the best notices
         clearly explain each of the key elements above with straightforward wording. These
         notices highlight their seriousness in multiple languages and emphasize the important
         sections with large, bold type. Examples of such notices appear in appendices A and B.7



Most sanction notices lack some key elements
         Clients must know how to cure a sanction in order to have full benefits reinstated, but only
         one-third of the sanction notices explicitly provide this information. For example, one
         county’s sanction notice reads, “. . . you must show that you are willing to comply with
         employment program requirements to meet eligibility requirements,” but does not specify
         the exact actions a client must take to demonstrate a “willingness to comply.” Only a few
         of the sanction notices fully explain the steps required to cure a sanction. “In order to end
         the sanction you must do the following . . . ” reads one notice, allowing the caseworker to
         fill in details for individual clients.

         7
        The notices in appendices A and B are from the same office. The first is sent at the initial instance of
noncompliance, the second when the actual benefit reduction takes place.

TANF—Improving Client Sanction Notices                   8                                           OEI-09-98-00292
         Clients have the right to representation in sanction disputes, but more than one quarter of
         the notices give incomplete or no information on contacting local legal services. Instead
         of directly referencing a local legal organization, some sanction notices state, “If you want
         to know more about how a fair hearing process works or to find out if free legal help is
         available, contact your local [TANF] Agency.” Clients likely would be reluctant to
         contact the agency imposing the sanction to seek help with an appeal.

         Notices more consistently outline other sanction details. More than three-quarters
         effectively relate the amount of the sanction, the reason(s) for the sanction, the name and
         number of the caseworker whom the client should contact, and the appeal rights of the
         client. Almost two-thirds provide complete information on the length of the client’s
         sanction. Those that do not usually give a start date for the sanction, but do not specify its
         minimum duration.


Notices with incorrect information complicate the sanction
process
         A few notices contain incorrect information that can create extra work for caseworkers
         and cause anxiety for clients. For example, the notice in appendix C clearly states, “You
         will not be eligible for Medicaid after 08/31/98.” According to the issuing State’s policy,
         however, TANF clients cannot be removed from Medicaid for nonparticipation in TANF
         programs or noncooperation with child support enforcement efforts. Thus, caseworkers
         must manually fill in the correct details on the last page of the notice and cross out the
         incorrect information. If left uncorrected, clients will be misinformed of the status of their
         medical benefits.



Sanction notices are sometimes difficult to understand
         Confusing wording can complicate sanction details. For instance, the notice on the next
         page is unclear on the amount of the sanction.8 The notice first informs the client, at point
         A, that her household will be receiving a $188 TANF grant. Then, at point B, the notice
         states the client’s benefit will be reduced from $188 to $110 because of noncompliance.
         The comments section (point C) further clouds the message by adding that the benefits
         will be reduced by $78. The notice in appendix C provides another example of confusing
         language.



         8
          The comments section in this notice originally appeared on two separate pages. The template for the
second, which mentions the client’s appeal rights and gives a contact for free legal services, is identical to page 3
of the notice presented in appendix C

TANF—Improving Client Sanction Notices                    9                                             OEI-09-98-00292
            Example of Confusing Sanction Notice




        A


        B




        C



         Several TANF offices send notices in only a few languages despite the diversity of their
         clients. In one area, the TANF office issues notices only in English although one-third of
         its clients speak only Spanish, according to the local advocacy group. “I get six to eight
         clients a week who get notices from [the TANF office] that they don’t understand,”
         reported another advocacy representative.


TANF—Improving Client Sanction Notices           10                                     OEI-09-98-00292
                             RECOMMENDATION

         The Office of Inspector General recognizes that the TANF block grant program gives
         States broad authority to design programs that quickly move welfare clients to self-
         sustaining employment. There is a role for the Administration for Children and Families
         (ACF), however, in providing guidance to States.

         We recommend that ACF encourage States to issue understandable and
         comprehensive sanction notices with information on:

                            <        the amount of the sanction,

                            <        the duration of the sanction,

                            <        the cause of the sanction,

                            <        names and phone numbers of specific contacts in the TANF

                                     office or service provider who will have more information about
                                     the sanction,
                            <        how to cure the sanction,
                            <        client appeal, fair hearing, and, if applicable, conciliation rights,
                                     and
                            <        referral(s) for local legal assistance.


AGENCY RESPONSE

         We received comments on the draft report from the Administration for Children and
         Families. The agency concurred with our recommendation and stated that it is committed
         to working with States to improve State sanction notices. It will provide States with
         examples of understandable and comprehensive sanction notices and facilitate networking
         among States interested in improving State sanction notices.




TANF—Improving Client Sanction Notices                 11                                    OEI-09-98-00292
                                                     APPENDIX A


     Notice that Contains Clear Information in Multiple Languages





                                                           Highlights
                                                           importance in
                                                           seven languages




Includes specific
sanction amounts




Gives reason for
the sanction




Clearly tells how
to lift sanction
and whom to
contact




     TANF—Improving Client Sanction Notices   12         OEI-09-98-00292
Clearly explains
appeal and
conciliation
rights




Gives number
for legal aid




     TANF—Improving Client Sanction Notices   13   OEI-09-98-00292
                                                                 APPENDIX B


                             Detailed Notice of Benefit Reduction

                               (Follows Notice in Appendix A)





Shows benefit
recalculation




     TANF—Improving Client Sanction Notices   14                     OEI-09-98-00292
                                                        APPENDIX C


          Notice that Contains Incorrect and Confusing Information





Incorrectly states
that Medicaid is
sanctioned




Vague
information




Confusing
information




       TANF—Improving Client Sanction Notices   15          OEI-09-98-00292
No correction of
prior statement
of Medicaid
sanction




       TANF—Improving Client Sanction Notices   16   OEI-09-98-00292
TANF—Improving Client Sanction Notices   17   OEI-09-98-00292
